Office of Inspector General
HomeCurrently selectedAudits / EvaluationsInvestigationsCorrespondenceAudits InitiatedTestimonyAbout OIG
The Inspector GeneralOrganizationOrganization ChartMission, Vision, and Core ValuesFAQs About OIG AuditsFAQs About OIG InvestigationsCareersContact Us
ListsLibraries
Home > FOIA Electronic Reading Room
FOIA Electronic Reading Room
Page ContentFrequently Requested Records
Review of Conduct by a High-Ranking USPTO Official in the Hiring of a Trademark Organization Employee (July 8, 2014)
OIG Report of Investigation: Bloomberg Financial News (May 14, 2013)
Oversight Areas
Office of the Secretary
Bureau of Economic Analysis
Bureau of Industry and Security
U.S. Census Bureau
Economic Development Administration
Economics and Statistics Administration
International Trade Administration
Minority Business Development Agency
National Oceanic and Atmospheric Administration
National Telecommunications and Information Administration
National Institute of Standards and Technology
National Technical Information Service
U.S. Patent and Trademark Office
home
U.S. Dept of Commerce
usa.gov
foia
info quality
privacy policy
disclaimer
plain language
FAR
CIGIE
Other Links
Contact Webmaster